OIG Audit Report GR-80-07-007

Services for Trafficking Victims Discretionary Grant Program Cooperative Agreement Awarded to the YMCA of the Greater Houston Area

Audit Report GR-80-07-007


April 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, completed an audit of the Services for Trafficking Victims Discretionary Grant Program (Program), Cooperative Agreement 2003 VT BX-K007, awarded by the U.S. Department of Justice, Office of Justice Programs, Office for Victims of Crime (OVC), to the Young Mens Christian Association (YMCA) of the Greater Houston Area in Houston, Texas.1 
The OVC is responsible for developing and administering the Program that was created by the Trafficking Victims Protection Act of 2000 (P.L. 106 386).  The money for this grant is appropriated funding and is not part of the Crime Victims Fund.
The Program provides direct services, such as shelter, medical care, crisis counseling, legal assistance, and advocacy through grants to states, Indian tribes, units of local government, and nonprofit, nongovernmental victim services organizations to develop, expand, or strengthen victim service programs for victims of severe forms of trafficking.2   It is also designed to create collaborative networks throughout the country to meet the multiple specialized needs of trafficking victims from the time they are identified to the time they are certified.  The U.S. Department of States June 2003 Trafficking in Persons Report found that 18,000 to 20,000 people are trafficked in the United States each year.  Trafficking victims usually come from economically disadvantaged and politically unstable countries.  Victims may face abuses such as rape, starvation, beatings, and psychological threats to self and family.
In January 2003, the YMCA was awarded a discretionary grant cooperative agreement from the Office for Victims of Crime in the amount of $529,927 for the period of January 1, 2003, through December 31, 2005.  In December 2005, the YMCA received a supplemental award of $295,000, for a total award of $824,927.  The supplemental award extended the original award period through June 30, 2007. 
We reviewed the YMCA of the Greater Houston Areas compliance with essential grant conditions and found weaknesses in two of the eight areas tested  reporting and grant expenditures.  We did not identify weaknesses in drawdowns, budget management and control, program income, matching program costs, monitoring of subrecipients, or grant achievements.  Our report contains seven recommendations that are discussed in detail in the Findings and Recommendations section.  Our audit objectives, scope, and methodology appear in Appendix I. 



Footnotes

All awards made under the OVC Services for Trafficking Victims Grant Program are discretionary cooperative agreements.
Severe forms of trafficking in persons means sex trafficking or the recruitment, harboring, transportation, provision, or obtaining of a person for labor or services through the use of force, fraud, or coercion for the purpose of subjection to involuntary servitude, peonage, debt bondage, or slavery.








Return to OIG Home Page